HHS/OIG-Audit--"Audit of Medicare Contractor's Segmented Pension Cost, IASD Health Services Corporation, (A-07-94-00744)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Contractor's Segmented Pension Cost, IASD Health Services
Corporation," (A-07-94-00744)
May 9, 1994
Complete Text of Report is available in PDF format
(1.06 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the IASD Health Services Corporation
(IASD) understated Medicare's pension assets as of 1986 by $1,450,102. This
occurred because IASD omitted certain cost centers in computing the actuarial
liability of the Medicare segment. Additional understatements totaling $179,280
have occurred since 1986 due to the original understatement and certain participants
in the Medicare segment were incorrectly identified. We recommended financial
adjustments to correct the understatement in Medicare's pension assets.